<html>
<title> - FOSTERING INNOVATION: CONTRIBUTIONS OF THE DEPARTMENT OF ENERGY'S NATIONAL LABORATORIES</title>
<body><pre>[Senate Hearing 115-484]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 115-484

                  FOSTERING INNOVATION: CONTRIBUTIONS
                     OF THE DEPARTMENT OF ENERGY'S
                         NATIONAL LABORATORIES

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

                                 OF THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 12, 2017

                               __________


                [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                
                

                       Printed for the use of the
               Committee on Energy and Natural Resources

        Available via the World Wide Web: http://www.govinfo.gov
        
        
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
26-874                     WASHINGTON : 2019   

        
        
        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                AL FRANKEN, Minnesota
CORY GARDNER, Colorado               JOE MANCHIN III, West Virginia
LAMAR ALEXANDER, Tennessee           MARTIN HEINRICH, New Mexico
JOHN HOEVEN, North Dakota            MAZIE K. HIRONO, Hawaii
BILL CASSIDY, Louisiana              ANGUS S. KING, JR., Maine
ROB PORTMAN, Ohio                    TAMMY DUCKWORTH, Illinois
LUTHER STRANGE, Alabama              CATHERINE CORTEZ MASTO, Nevada
                                 ------                                

                         Subcommittee on Energy

                         CORY GARDNER, Chairman

JAMES E. RISCH                       JOE MANCHIN III
JEFF FLAKE                           RON WYDEN
STEVE DAINES                         BERNARD SANDERS
LAMAR ALEXANDER                      AL FRANKEN
JOHN HOEVEN                          MARTIN HEINRICH
BILL CASSIDY                         ANGUS S. KING, JR.
ROB PORTMAN                          TAMMY DUCKWORTH
LUTHER STRANGE                       CATHERINE CORTEZ MASTO

                      Colin Hayes, Staff Director
                Patrick J. McCormick III, Chief Counsel
  Brianne Miller, Senior Professional Staff Member and Energy Policy 
                                Advisor
           Angela Becker-Dippmann, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
           Scott McKee, Democratic Professional Staff Member
           
           
           
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Gardner, Hon. Cory, Subcommittee Chairman and a U.S. Senator from 
  Colorado.......................................................     1
Manchin III, Hon. Joe, Subcommittee Ranking Member and a U.S. 
  Senator from West Virginia.....................................     2
Duckworth, Hon. Tammy, a U.S. Senator from Illinois..............     4

                               WITNESSES

Tumas, Dr. Bill, Associate Lab Director, Materials and Chemical 
  Science and Technology, National Renewable Energy Laboratory...     5
Ratnayake, Anuja, Director, Emerging Technology Strategy, Duke 
  Energy Corporation.............................................    16
Kearns, Dr. Paul, Interim Laboratory Director, Argonne National 
  Labora-
  tory...........................................................    25
Anderson, Dr. Brian J., Director of the WVU Energy Institute, 
  West Virginia University.......................................    32

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Anderson, Dr. Brian J.:
    Opening Statement............................................    32
    Written Testimony............................................    35
    Responses to Questions for the Record........................    71
Duckworth, Hon. Tammy:
    Opening Statement............................................     4
Gardner, Hon. Cory:
    Opening Statement............................................     1
    ``75 Breakthroughs'' by the U.S. Department of Energy's 
      National Laboratories......................................    39
Kearns, Dr. Paul:
    Opening Statement............................................    25
    Written Testimony............................................    28
Manchin III, Hon. Joe:
    Opening Statement............................................     2
Ratnayake, Anuja:
    Opening Statement............................................    16
    Written Testimony............................................    18
    Responses to Questions for the Record........................    68
Tumas, Dr. Bill:
    Opening Statement............................................     5
    Written Testimony............................................     8
    Responses to Questions for the Record........................    63

 
                  FOSTERING INNOVATION: CONTRIBUTIONS
                    OF THE DEPARTMENT OF ENERGY'S
                         NATIONAL LABORATORIES

                              ----------                              


                      TUESDAY, SEPTEMBER 12, 2017

                               U.S. Senate,
                            Subcommittee on Energy,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 3:06 p.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Cory Gardner, 
Chairman of the Subcommittee, presiding.

            OPENING STATEMENT OF HON. CORY GARDNER, 
                   U.S. SENATOR FROM COLORADO

    Senator Gardner [presiding]. The Committee will come to 
order.
    Good afternoon everyone, and thank you for your patience as 
we had to delay the hearing start.
    Today the Subcommittee on Energy will hold its second 
hearing in the 115th Congress. I enjoy the opportunity, always, 
to work with the Ranking Member, Senator Manchin, to address 
these key topics in Energy.
    During today's hearing we will take a deeper look into the 
Department of Energy's National Laboratory system. In 2015, the 
Council to Review the Effectiveness of the National Energy 
Laboratories stated that the 17 labs of the DOE ``are national 
assets that have contributed profoundly to the nation's 
security, scientific leadership, and economic 
competitiveness.'' I am excited to hear much more about these 
outcomes today.
    The constellation of national labs was born from our desire 
to harness nuclear energy. Through today's discussion, I 
suspect our witnesses will enlighten us on the dramatic 
transformations that the lab system has taken over the last 70 
years to continually address our nation's biggest challenges 
and leaders, and as you are leaders, on the global stage.
    The U.S. has been the leader in research and development 
for years, but China is close at our heels in research 
spending. How we choose to invest in our national labs and 
support the scientists within them is critical going forward.
    Today I hope to hear more about what has been accomplished 
with the world-leading unique facilities we have developed so 
far and insights into how our laboratories incubate creative 
experts responsible for life-changing outcomes.
    If I remember right from chemistry class, and according to 
my grades I may not have always remembered right, a catalyst is 
something that promotes or accelerates a reaction or outcome 
that would not normally happen. I believe our national labs are 
catalysts that have accelerated or made possible many 
innovations.
    Our national labs harness nuclear power. They have shown us 
how to draw energy from the sun and the wind. Medical imaging 
was made possible by national lab materials discoveries. They 
have continued to push the limits of computational power and 
software tools to analyze the most difficult problems to keep 
us all safe, both from nuclear weapons and even in the car as 
we drive.
    The national labs are truly a catalyst. The ability of 
national labs to encourage innovation, foster collaboration and 
accelerate outcomes results in significant value and impact.
    I expect our witnesses today can probably teach us a thing 
or two about catalysis science. Beyond that, I definitely look 
forward to hearing them elaborate on the discovery environment 
within the labs and examples of results providing societal 
value. I believe the national labs have demonstrated a great 
ability to our delivery on science over several generations and 
Administrations and will continue to enhance the lives of 
millions of Americans.
    I would like to welcome our four witnesses: Dr. Brian 
Anderson, Dr. Kearns, Ms. Ratnayake, if I got it right, and Dr. 
Tumas; but I will start first with turning to Senator Manchin 
for comments and introduction.

              STATEMENT OF HON. JOE MANCHIN III, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Manchin. Thank you, Mr. Chairman. I want to thank 
you for scheduling this hearing and for your work and support 
of our country's national lab system.
    Between the National Energy Technology Lab in Morgantown, 
West Virginia, and the National Renewable Energy Lab that calls 
Colorado home, Senator Gardner and I have a firsthand 
understanding and appreciation for the critical work that is 
done by the good men and women who make our national lab 
systems.
    I was happy to work with Senator Capito on the 
Appropriations Committee to ensure that NETL is funded at 
$72.66 million for NETL research and development and at $58.68 
million for NETL infrastructure and operations for the Fiscal 
Year 2018 Energy and Water bill.
    I also want to thank Senator Heinrich for his leadership on 
the Energy Technology Maturation Act of 2017. This bill is a 
commonsense approach to ensuring that the Department of Energy 
can incentivize small businesses and private sector interest to 
partner with the national laboratories to advance the growth of 
lab-based technologies into commercial markets. I am happy to 
be a co-sponsor also with him.
    And last, but not least, I appreciate that our witnesses 
are joining us today for this very timely discussion. In 
particular, I want to recognize Dr. Brian Anderson who leads 
the West Virginia University Energy Institute. I have worked 
with Brian for some time, and I am glad he is here today to 
give us the University Partner's perspective on the importance 
of the work being done in Morgantown at the National Energy 
Technology Lab.
    The network of 17 national labs have developed over a long 
history with many originating during the time of the Manhattan 
Project. The national labs focus on energy innovation, 
scientific research, national security and environmental 
stewardship. The national labs work at the forefront of basic 
science and fundamental research, and the work that our 
national labs do has led to some of the most significant 
innovations of the last century. Just a couple examples include 
making digital recording technology a reality and x-ray vision. 
It was actually the national labs who discovered the difference 
between good and bad cholesterol.
    Over the past year, the national laboratories provided 
expertise and support for the joint comprehensive plan of 
action which, as we know, is the Iran Nuclear Agreement and 
addressing and evaluating the impact of the leak at the Aliso 
Canyon Underground Natural Gas Storage Facility.
    Another unique but important aspect of our lab systems are 
user facilities. The labs have unique and leading-edge user 
facilities such as x-ray and neutron sources, advanced 
accelerators and laser facilities, and nanomaterials facilities 
that benefit the research of over 33,000 researchers from 
academia, research institutions and private industries, 
annually.
    The lab that I hold near and dear to my heart is the 
National Energy Technology Lab (NETL) which is headquartered in 
Pittsburgh. The NETL is the only government-owned, government-
operated, GOGO lab, in the national lab system. Housed under 
the Department of Energy's Office of Fossil Energy, it 
celebrated its 100th anniversary several years ago in 
recognition of a history of research stations dating back to 
1910.
    NETL implements a broad range of energy and environmental 
research and development programs that include enabling 
domestic coal, natural gas and oil to economically power our 
nation's homes, businesses and transportation in an efficient, 
environmentally sustainable way.
    With a sprawling complex in Morgantown, West Virginia, that 
employs approximately 612 people, NETL has delivered some of 
our most important energy innovations in recent decades. NETL 
has expertise in coal, oil and gas technologies as well as 
energy systems and international energy issues. For example, 
its work regarding the extraction of rare earth elements (REE) 
from coal byproducts is a testament to NETL's ability to think 
creatively to solve our nation's energy security and supply 
chain challenges.
    I was happy to help secure funding for the REE research in 
the Fiscal Year 2018 Energy and Water bill and look forward to 
working with WVU and NETL further as we work to redevelop a 
domestic energy industry for rare earth elements.
    And as Dr. Anderson will tell us today, NETL's 
partnerships, cooperative research and development agreements, 
financial assistance and contractual arrangements with 
universities and the private sector have led to extraordinary 
collaboration amongst the world's leading minds in energy 
innovation.
    West Virginia has a history of producing energy for the 
rest of the country and NETL has played a big role in ensuring 
that we are striving to do it in cleaner, more efficient and 
more cost-effective ways. That has contributed greatly to West 
Virginia's role as a net energy exporter.
    In conclusion, the national labs are the lifeblood of our 
innovation. The collaborative nature of this lab system makes 
our lab system dramatically important to the future of science 
and energy innovation in this country; therefore, the proposed 
budget cuts to our national lab system are concerning to say 
the least. The Fiscal 2018 proposed budget would cut $1.25 
billion in funding from the national labs which could eliminate 
about 7,000 jobs. That is obviously going to result in a brain 
drain that will cause major disruption to the ongoing work at 
these facilities, at our universities and in the private 
sector.
    I look forward to working with Chairman Gardner and my 
colleagues to ensure our nation's labs are given the resources 
they need to continue their vital work.
    Thank you all for being here.
    Senator Gardner. Thank you, Senator Manchin, and thank you 
for the introduction of Dr. Anderson, one of our witnesses 
today.
    Senator Duckworth, I know, has an introduction as well.

              STATEMENT OF HON. TAMMY DUCKWORTH, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Duckworth. Thank you, Mr. Chairman.
    It is a real pleasure to introduce Dr. Paul Kearns, Acting 
Director at Argonne National Laboratory, which is in my home 
State of Illinois.
    I was warned by my staff not to make this claim because we 
do not actually have the hard data for it, but I am going to 
claim it anyway--I think, with our two national labs, we have 
more particle physicists per capita than any other state in the 
nation and I dare anyone to come up with the data to prove me 
wrong.
    [Laughter.]
    Senator Gardner. I am going to have to look into that.
    Senator Duckworth. Go for it. Go for it.
    Senator Franken. I am on it too.
    Senator Duckworth. There you go, there you go.
    [Laughter.]
    Dr. Kearns heads up one of those critical, critical, crown 
jewels of scientific innovation in Illinois. We also have the 
privilege of having the first national lab in the country, 
Argonne.
    Dr. Kearns has a long and decorated career as a scientist 
having served across the country at several national labs. His 
experiences are especially relevant to this hearing on 
innovation.
    At Argonne, Dr. Kearns guides the development and 
implementation of the laboratory's strategic vision. He is 
leading Argonne in its efforts to continue delivering world 
class performance in science and technology, operations, 
employee health and safety and environmental protections.
    Dr. Kearns promotes a culture of innovation and 
collaboration within the laboratory which will serve it well as 
it enters into its 75th year, and he also promised to put in a 
good word for Fermilab, our other national laboratory as well. 
So I am incredibly happy that Dr. Kearns was able to join us 
for this very important conversation.
    Thank you for being here and welcome.
    Thank you, Mr. Chairman.
    Senator Gardner. Thank you, Senator Duckworth.
    We will begin with the lab that just happens to be located 
in the great State of Colorado, the National Renewable Energy 
Laboratory, Dr. William Tumas, Associate Laboratory Director, 
Materials and Chemical Science and Technology.
    Dr. Tumas is responsible for overall leadership, 
management, technical direction and workforce development of 
the materials and chemical science and technology capabilities 
at NREL, spanning fundamental and applied research and 
development for renewable energy and energy efficiency.
    Dr. Tumas received his undergrad degree in chemistry from 
Ithaca College, his Ph.D. from Stanford and then did his post-
doctoral research at Caltech. I hope you have paid your student 
loans.
    [Laughter.]
    With that, I look forward to hearing your testimony. Thank 
you.

STATEMENT OF DR. BILL TUMAS, ASSOCIATE LAB DIRECTOR, MATERIALS 
AND CHEMICAL SCIENCE AND TECHNOLOGY, NATIONAL RENEWABLE ENERGY 
                           LABORATORY

    Dr. Tumas. Thank you, Senator Gardner, thank you, Ranking 
Member Manchin and the rest of the Subcommittee for the 
opportunity to talk about the value of the national 
laboratories today.
    As Senator Gardner said, I'm the Associate Lab Director for 
Materials and Chemistry at the National Renewable Energy Lab, 
commonly called NREL. I lead programs in material science, 
nanoscience, chemistry, energy storage, solar energy, hydrogen 
and fuel cells. I also lead an Energy Frontier Research Center 
in Materials by Design.
    I started my career at DuPont Central Research and six 
years later I moved to the Los Alamos National Laboratory and 
in 2010 I moved to NREL.
    What attracted me to the national labs, as we heard from 
our Chair and the Ranking Member, is the ability to really 
address big science challenges, complex problems and to work in 
a real teeming science environment with superb colleagues and 
excellent facilities.
    As we heard already, the national labs have contributed 
significantly to our national security, our energy security, 
our economic prosperity and our scientific leadership.
    Other examples include optical disc recording to explosive 
detection, many examples we heard from our everyday lives can 
track their origin to national laboratories, strengthening the 
metal on aircraft, 22 elements were discovered at the national 
laboratories, everything from lead-free solder to nuclear 
deterrents to airport security.
    Another thing that I'd like to point out is the national 
labs really are one of the only groups that you can pull 
together, essentially, on a moment's notice to create very 
large, multi-disciplinary teams to tackle really pressing 
needs, whether it's disaster forecast, disaster recovery or 
other things that are even classified that we can't discuss in 
this arena, there are many examples today.
    The national labs, as we heard, have a scientific use, set 
a specialized science user facilities. They also have a pool of 
highly-
talented individuals and researchers, and that really forms the 
backbone of a national lab system that I would purport really 
is a huge engine for maintaining and developing our country's 
science and technology capability.
    In addition to allowing access to tens of thousands of 
scientists from universities and industry to the user 
facilities, the lab serves as a magnet and, I would argue, a 
training ground for our next generation of scientists and 
engineers.
    There are a number of examples where we've seen significant 
impact in energy as well. Cost-efficient shale gas can trace 
its way back to national lab work. We'll hear about carbon 
capture and storage, perhaps, from NETL and the University of 
West Virginia. Photovoltaics, near and dear to my heart, from 
our own laboratory, and I'm sure we'll hear about advanced 
battery technologies from our colleague from Argonne.
    NREL work encompasses fundamental science but also applied 
science and engineering, technical analysis and assessment and 
systems integration. And we're proud to have made significant 
contributions in partnership with many others to a number of 
areas. Thin film solar cells are made by a U.S. company and 
create tens of gigawatts of clean power. Multi-junction, high-
efficiency solar cells power satellites and are finding 
increasing use by the U.S. military for energy.
    The U.S. industry, solar industry, employs over 370,000 
employees today. The wind industry employs 100,000 and is on 
track for a quarter million employees in the U.S. by 2020.
    NREL has contributed significantly to power variable power 
strategies and pitch control that are used in almost every 
turbine in many, many states in our country.
    Making energy more affordable and domestically available, 
of course, also makes U.S. industry more competitive. In 
addition to working on affordability, NREL works a lot on 
resiliency. Through our energy systems integration facility, we 
work with other laboratories, you'll hear examples from Duke 
Energy today, on trying to make the grid more stable, more 
reliable and more secure. And we have a co-lead of 14 lab 
consortium that aims to modernize our grid and also guard it 
against both manmade and natural threats.
    Despite all these great advances, we live in a world of 
great opportunity and a world of great challenge. 
Supercomputers coupled with experiment can help us discover 
materials; but in the future, it can also help us design 
entirely new processing concepts that could lead to advanced 
manufacturing. Understanding the Earth subsurface is critical 
for fossil fuel extraction, for nuclear waste disposal and for 
maintaining and assuring high-quality water resources across 
our country.
    From a catalysis science standpoint, Senator Gardner, I'm 
fascinated by what we can do in the future of taking carbon 
dioxide and not thinking of it as a waste product, but actually 
converting it to materials and to products of commerce.
    In energy, we aren't done yet. There's still much to be 
done on cost, on efficiency, on accelerating the deployment and 
on getting more energy on to the grid, a true above all 
strategy. As we'll hear from our colleagues, likely, energy 
storage is critical as well.
    Through the energy materials networks we've seen that 
laboratories now can work on big data, computation and 
experiment and partnership with industry and companies and 
address a myriad of challenges, like lightweight materials, 
electrocatalysis for hydrogen production and for fuel cells, 
caloric materials for refrigeration and one that I like that we 
lead with NREL with three other labs, looking at photovoltaic 
materials for photovoltaic modules. So we certainly aren't done 
yet. Continued innovation is critical.
    I think it's unrealistic to expect the private sector, 
though, to pick up the massive R&D void that significant 
curtailment in our federal R&D budgets could cause. In fact, I 
would argue that the Bell Labs, Westinghouse Labs and, as of 
last year, my own former employer, DuPont Central Research, 
don't even exist anymore.
    Our current ecosystem really depends much more on public-
private partnerships between national laboratories and industry 
and companies, and that's what's needed to turn scientific 
discoveries into beneficial use.
    Success comes not only from fundamental research on 
materials discovery, as we've seen in solar and batteries, but 
also laboratory engagement with partners on devices, 
prototypes, testing, reliability and durability, the entire 
technology development spectrum.
    We're not the only country making major investments. As you 
know, other countries are making massive investments, as 
Senator Gardner told us.
    Cutting-edge science is going to be critical to the future 
of America and it's going to be critical to maintain our 
competitive edge. And I would argue if we fail to take 
advantage of the science assets and the prior investments 
already made, we risk depending on others for the ideas, 
knowledge and the innovation we surely will need in the future.
    So I'd just like to close by telling you that, in summary, 
national labs bring an unmatched expertise, I think, in 
science, but also a very strong and very key link to connecting 
science to the technological advances that we require.
    With that, I want to thank you for the opportunity to talk 
to you and thank you for your leadership.
    [The prepared statement of Dr. Tumas follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Gardner. Thank you, Dr. Tumas.
    Our next witness, Ms. Ratnayake, who is joining us today, 
is the Director of Emerging Technology Strategy for Duke 
Energy. The Emerging Technology organization is responsible for 
monitoring technology-driven megatrends, identifying and 
developing utility technologies, and informing Duke Energy's 
long-term strategy.
    Ms. Ratnayake has over a decade of experience in the energy 
industry as she earned her Bachelor's degree in Business 
Administration from Berea College and holds a Master's degree 
in both Business Administration and Diplomacy and International 
Commerce from the University of Kentucky.
    A native of Sri Lanka, Ms. Ratnayake and her husband have 
two sons.
    Thank you for joining us today.

  STATEMENT OF ANUJA RATNAYAKE, DIRECTOR, EMERGING TECHNOLOGY 
               STRATEGY, DUKE ENERGY CORPORATION

    Ms. Ratnayake. Thank you, Senator.
    Good afternoon, Chairman Gardner, Ranking Member Manchin 
and members of the Subcommittee. My name, as I was introduced, 
is Anuja Ratnayake. I'm the Director of Emerging Technology 
Strategy at Duke.
    Our team, as Senator Gardner mentioned, we are the front 
end of Duke Energy, where we lead emerging technology pilot 
projects, including a focus on energy storage, microgrids and 
renewable energy integration and we continuously work with a 
number of national labs.
    If I may, I'd like to take a moment to acknowledge Duke 
Energy's customers and employees, who have been affected by 
Hurricane Irma which has caused widespread devastating damage 
across Florida, as well as damage and outages in the Carolinas.
    In the storm's aftermath personnel safety continues to be 
the most important focus as we work as quickly as possible to 
restore power to critical infrastructure and all of our 
customers.
    Today, I appreciate the opportunity to provide the 
Subcommittee with the perspective of regulated electric utility 
on the value that the Department of Energy's national labs 
provide to the electric power sector and our customers.
    Duke Energy is one of the largest energy companies in the 
U.S., serving a population of about 24 million people with 
electric and gas services. We operate under a regulatory model 
that prioritizes lowest cost for customers which is met through 
prudent commercialized technology. This regulatory structure 
does not incentivize utilities to undertake research, 
development and early adoption of new and emerging solutions 
due to the inherent technology risk during the early stages of 
their commercialization. This creates significant challenges as 
potentially transformational but nascent solutions are unable 
to prove their abilities without extensive testing. This is 
exactly the gap the DOE research programs and ARPA-E fill, 
serving a vital role for the entire energy sector.
    New technologies that are meant to operate on their own can 
take years of R&D in lab settings before they become 
scientifically viable and then more R&D in field settings 
before they're economically competitive.
    The energy grid is the largest and most complex machine in 
the world, comprised of many millions of subcomponents, all 
working seamlessly together to keep your lights on. Adding a 
single, new subcomponent, not only requires years of R&D by 
itself, but it must also prove it can work with the millions of 
existing components, as well as other future requirements 
driven by parallel technology developments.
    This is not the kind of R&D even the most well-funded, 
sophisticated company should do on its own. For if a technology 
doesn't work, it could literally turn out we're dark. This is 
why we strongly believe the true transformative potential of 
today's emerging technologies cannot be realized without 
partners like the national labs. They have expertise with this 
complex system as well as the unique tools necessary to test 
and validate emerging tech capabilities.
    In my written testimony, I have described specific project 
examples on increasing efficiency in fossil generation, 
expanding grid resiliency and enabling seamless renewable 
integration. The fundamental point of these projects is to 
position our industry to embrace the changing energy future and 
evolving customer expectations.
    To highlight one of these examples our collaborative 
partnership with Pacific Northwest National Lab looked at 
impacts of integrating solar PV on the grid. The lessons 
learned from this study have proven essential for understanding 
intermittency and maintaining reliability while we add more 
solar to our system.
    With PNNL we further evaluated leveraging energy storage, 
smart inverters and demand site management to effectively and 
economically integrate the increasing levels of solar 
generation. This work was an essential building block for us to 
rethink how to plan a smart energy future for our customers.
    Our mandate as electric utilities is to provide safe, 
reliable and affordable energy for our customers. Your support 
and investments in the national labs enable us to leverage new 
technologies, to modernize the power grid and stimulate 
economic growth while we continue to meet this mandate.
    The capabilities offered by the national labs are 
unattainable anywhere else in the industry and are critical to 
the industry's ability to understand how to better operate and 
plan our system for the future. This ultimately ensures 
customers and our communities have the lowest cost, most 
reliable, resilient and advanced clean energy system in the 
world.
    Thank you for the opportunity to be here today, and I look 
forward to your questions.
    [The prepared statement of Ms. Ratnayake follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Gardner. Thank you, Ms. Ratnayake.
    Dr. Kearns, as introduced by Senator Duckworth, the Interim 
Director at the Argonne National Laboratory.
    Thank you.

  STATEMENT OF DR. PAUL KEARNS, INTERIM LABORATORY DIRECTOR, 
                  ARGONNE NATIONAL LABORATORY

    Dr. Kearns. Chairman Gardner, Ranking Member Manchin and 
members of the Subcommittee, thank you for the opportunity to 
appear before you today.
    I am Paul Kearns, the Interim Director of Argonne National 
Laboratory which is located in Lemont, Illinois. For nearly 
three decades I've held senior management positions in the 
Department of Energy's national laboratories. I am passionate 
about securing our nation and encouraging breakthrough 
discoveries in science and technology.
    For more than 70 years the U.S. Department of Energy and 
its national laboratories have been delivering scientific 
discovery and innovation focused on understanding nature's 
deepest secrets, improving the way our nation generates, 
distributes and uses energy, and enhancing global, national and 
our homeland security. Time and again the laboratories have 
been called upon to overcome the world's greatest scientific 
challenges, from answering urgent questions about outbreaks of 
Ebola to mitigating weather-related risk with innovative 
detailed computer models.
    The Department of Energy operates five light sources, 
including our Advanced Photon Source at Argonne. Each offers a 
different way of characterizing materials at the atomic and 
molecular level so that we may understand, predict and 
ultimately control material properties.
    From these facilities come life-changing discoveries. Drugs 
used to treat and halt the progression of conditions, including 
advanced kidney cancer, malignant and inoperable skin cancer, a 
common type of leukemia and HIV all got their start at 
Argonne's Advanced Photon Source. Research there has also led 
to greater understanding of diseases ranging from autism to 
osteoporosis.
    This ability to view matter in great detail has led to many 
other inventions as well. The intense x-rays of the Argonne 
Advanced Photon source has helped us design the technology 
that's used in the battery cell that powers the Chevy Volt. It 
has also led to insights about how to improve the reliability 
of additive manufacturing, the efficiency of the internal 
combustion engines and the possibility of hypersonic flight. 
These insights flow from open and productive partnerships with 
a range of industries including pharmaceuticals, oil and gas 
and transportation.
    As we upgrade Argonne's Advanced Photon Source, researchers 
will be able to peer deeper in near real time and develop, for 
example, next generation quantum materials with extraordinary 
properties and create 3-D images of the human brain. In other 
words, the ultimate 3-D microscope is within the nation's 
grasp.
    More than 30 of the 500 fastest supercomputers in the world 
can be found at DOE laboratories. At Argonne, we've helped 
industry perform simulations in support of more efficient jet 
engines and wind turbines and help doctors arrive at prognosis 
and treatment plans designed specifically for individual cancer 
patients. Scientists also use these resources to enhance the 
creation of nanocircuits to usher in the next generation of 
electronic circuitry.
    We design, build and operate distinctive scientific 
instrumentation and facilities making supercomputing, imaging 
and other resources available to the wider research community. 
This multiplies the value the national laboratories deliver 
through collaboration with more than 30,000 users of our 
facilities from academia and industry.
    With our unique talent and tools, national laboratories 
play a critical role in large-scale, long-term research and 
development that compliments the pursuits of universities and 
industry to discover new knowledge and better human lives.
    Argonne's material science and chemistry research has 
yielded a spectrum of innovations ranging from some of the 
toughest ceramic ever produced--perfect for energy and 
transportation applications--to innovations that demonstrate 
the doubling of the carrying capacity of the best commercial 
superconductors.
    DOE laboratories and universities mutually benefit from 
developing strategic partnerships. These partnerships 
capitalize on the different strengths of their respective 
organizations and bring unique solutions to regional and broad 
national challenges.
    As an example, the Institute for Molecular Engineering 
created, as a partnership between Argonne and its parent 
organization, the University of Chicago, looks to impact major 
society issues with innovative technologies achieved through 
molecular scale, design and manipulation.
    The Argonne Joint Center for Energy Storage Research, 
JCESR, DOE's battery and energy storage hub, is an example of a 
successful public-private partnership, bringing together 
collaborators from universities, industry, and other national 
laboratories. The hub's mission is to look beyond lithium ion, 
today's technology, to create next generation battery 
technologies that will transform the transportation sector and 
the electrical grid, the way today's lithium ion batteries have 
transformed personal electronics.
    In addition to energy storage, national laboratories are 
working to create a more reliable and resilient power 
infrastructure for U.S. energy and economic security, as has 
been mentioned already today. The laboratories increase the 
mobility of our citizens with new transportation systems 
through diversified fuel sources and increased efficiency.
    We integrate combustion, fuels and lightweight materials 
research to improve internal combustion engine efficiency. We 
explore the possibility of cost-effective and durable hydrogen 
storage materials for fuel cells and develop and deploy new 
energy storage technologies for electric and hybrid electric 
vehicles.
    Specialists in backgrounds in engine and combustion system 
development, as well as high-octane and bio-derived fuel 
chemistries collaborate with our leading experts in advanced 
engine simulations allowing for comprehensive assessment of 
alternative fuels to optimize fuel economy gains for a range of 
applications.
    National laboratories make us more secure by advancing 
nuclear materials management, detection, and forensic 
capabilities to protect the nation. They also enhance the 
safety, security and reliability of the nation's nuclear 
deterrent. We provide the targeted, sophisticated data 
collection and lightning-paced parsing necessary to inform 
national security decision-making, and create an advantage with 
energy and power solutions specifically designed to fulfill 
national security missions.
    The success of the national laboratories is being noticed 
by other countries. They are looking at our model to replicate 
its unique interdisciplinary nature. We must continue to invest 
in this system to remain at the forefront of research and 
development as we overcome the greatest scientific challenges.
    Thank you for your time and interest in how the national 
laboratories bring greater security, health, and prosperity to 
Americans.
    I welcome any questions that you might have.
    [The prepared statement of Dr. Kearns follows:] 
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Gardner. Thank you, Dr. Kearns.
    Dr. Anderson, introduced by Senator Manchin, the Director 
of the West Virginia Energy Institute.
    Thank you, Dr. Anderson.

STATEMENT OF DR. BRIAN J. ANDERSON, DIRECTOR OF THE WVU ENERGY 
              INSTITUTE, WEST VIRGINIA UNIVERSITY

    Dr. Anderson. Chair Gardner and the rest of the Committee, 
I thank you very much for your attention today. And I do, 
certainly, thank Senator Manchin for his kind introduction.
    As he mentioned, I am the Director of the WVU Energy 
Institute at West Virginia University. We are the central 
umbrella organization to help coordinate interdisciplinary and 
multidisciplinary research across our 14 colleges and schools 
and that includes 167 affiliate faculty members who work in the 
energy space.
    I am the GE Plastics Materials Engineering Professor of 
Chemical Engineering and have 17 years of energy research 
experience, primarily in chemical engineering, CO2 
sequestration, natural gas hydrates, unconventional gas 
production and geothermal energy. In all of these research 
areas I have personally collaborated with NREL, Argonne, Los 
Alamos, Lawrence Berkeley, Lawrence Livermore, Idaho National 
Lab and, of course, NETL.
    West Virginia University is a public, land-grant, research-
intensive university. It is one of the Carnegie Classification 
Research 1 universities, which is the top 115 universities 
performing research in the country.
    Our Morgantown campus hosts the University Energy 
Institute, the National Research Center for Coal and Energy, 
the Center for Alternative Fuels, Engines and Emissions which 
discovered the Volkswagen was cheating on their emissions tests 
last year.
    The University has active and ongoing research related to 
operating improvements on existing coal-fired power generation, 
the recovery of rare earth elements from coal wastes, 
instrumentation and sensor development to accurately measure 
fugitive emissions from shale gas wells, analysis of sub-
surface geologic structures and their applicability to store 
gas liquids, carbon sequestration or to produce natural gas.
    We have also developed sophisticated software systems and 
algorithms that can model complex fossil fuel combustion 
systems, as well as complex electric transmission grids 
responding to variable generation from intermittent sources 
like solar and wind.
    In the renewable space, we are a leader in biomass as well 
as geothermal energy and in energy storage to enable renewable 
energy technologies onto the grid.
    Additionally, the U.S.-China Clean Energy Research Center 
(CERC) Advanced Coal Technology Consortium is based in the WVU 
Energy Institute at West Virginia University. That consortium 
is one of five consortia across the country that was created 
through a bi-lateral protocol signed in 2009 between the United 
States Department of Energy and two agencies of the People's 
Republic of China, the Ministry of Science and Technology and 
the National Energy Administration. The initial phase of this 
Center's Protocol spanned five years and in 2015 was extended 
another five years.
    As with most of our major research initiatives at WVU, this 
CERC program involves a number of Department of Energy National 
Laboratory collaborations. The CERC program has national 
laboratory project partners, such as Lawrence Livermore 
National Laboratory, Los Alamos National Lab, the National 
Energy Technology Laboratory. And these lab partners are in 
addition to the number of private sector and academic 
institutions including Duke Energy.
    A second project that I would draw your attention to is 
called the Marcellus Shale Energy Environment Laboratory 
(MSEEL). Again, this is a collaboration between the National 
Energy Technology Lab and WVU.
    As we know, much of our power sector is shifting to natural 
gas and a lot of natural gas is being produced from Appalachia. 
Our MSEEL site is the world's first transparent well in the 
sense that all the data collected in terms of its water 
footprint, its air footprint, noise, light and the full cycle 
of the production of natural gas from the Marcellus Shale site 
in Morgantown is open to the public.
    This is one of the most instrumented wells in the world and 
we have a full record of all of the emissions through the cycle 
with the design on reducing emissions during production as well 
as emissions during transportation and distribution of natural 
gas. Not only is this project funded by the DOE Fossil Program, 
it does heavily involve NETL as a research partner.
    In addition to the partnership between CERC and MSEEL, the 
University has active relationships with the NREL in 
geothermal, biomass and hydroelectric, Brookhaven National Lab, 
Oak Ridge, Pacific Northwest and Lawrence Berkeley National 
Lab, not to leave them out, but these are our major research 
collaborations.
    We have worked with NETL since 1946 supporting their R&D 
activities. In '46 the research came to Morgantown in the form 
of a synthesis gas branch experiment station, specifically 
focused on coal gasification research at WVU.
    WVU has collaborated with the NETL when it was the 
Morgantown Energy Center. The Morgantown Energy Technology 
Center, the Federal Energy Technology Center and, of course, 
now, NETL.
    So for the better part of the last decade we have, through 
the onsite research contract, been a part of the Regional 
University Alliance with our partners at Carnegie Mellon 
University, the University of Pittsburgh, Virginia Tech and 
Penn State, where many students have completed their Ph.D. work 
onsite at the laboratory, including many of my own. Not only 
does this provide a broad and talented research workforce for 
the laboratory, but it also has resulted in a number of R&D 100 
awards that have been awarded to RUA researchers.
    So generally, innovation ecosystems often include 
innovation clusters at the scale of metropolitan areas that 
form a core research group of universities or companies. These 
innovation clusters are typically driven by the interaction of 
early stage technology ideas or firms with financing and 
related companies in a geographically concentrated area that 
has an enabling environment.
    Geographic proximity often encourages rapid 
commercialization; however, the DOE national laboratories act 
not only as a convening party, but that catalyst in a hub for 
innovation ecosystems across the United States.
    I do sincerely thank the Committee for your time and 
attention today and for allowing me to speak about West 
Virginia University and our partnerships with the many national 
laboratories.
    Thank you.
    [The prepared statement of Dr. Anderson follows:] 
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Gardner. Thank you, Dr. Anderson, and thanks to all 
of you for being here, again, today.
    I think this panel is a great representation of what our 
national labs stand for and how research and development in 
this country really works because we have not only the 
scientists from our great laboratories across the country, but 
we have the private sector involvement, we have our 
universities and research institutions that are all at the 
table to talk about innovations in research science and how we 
are going to maintain, in this country, the leading edge of 
innovation.
    I encourage everybody who is listening or a part of this on 
the dais to check out this ``Breakthroughs'' by America's 
national laboratories, 75 breakthroughs, the highlights in 
2017.
    [The information referred to follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    I just thought I would go through a few of these. It is 
pretty phenomenal.
    Our labs fabricated the smallest machines. The world's 
smallest synthetic motor, as well as radios, scales and 
switches that are 100,000 times finer than a human hair were 
designed at our national labs. And it is important to talk 
about, okay, that is great, but how do you turn on a radio that 
is that small? Well, these are the forays into nanotechnology 
that could lead to life-saving pharmaceuticals and more 
powerful computers.
    We are talking about a national lab discovery on freezing 
smoke and the smoke is actually fireproof which, there is an 
irony there, it is incredible to think about why would you 
freeze smoke and how did we come up with this, but what can it 
do? Well, it is heat-
resistant aerogels that are candidates for insulation in 
buildings, vehicles, filters in appliances. These are things 
that are life-altering, life-changing, life-improving.
    Ms. Ratnayake, in your comments and testimony you stated, 
``There's this role, an appropriate role, for industry. There 
is an appropriate role for the national lab system.''
    These discoveries and the partnerships you do together in 
industry, tell me the importance of federally funding and 
assuring appropriate and full robust funding for our national 
labs. What does that mean to Duke and to private industry?
    Ms. Ratnayake. Certainly, Senator.
    You gave some really good examples. They may not 
necessarily be anything specific, but the energy examples are 
equally transformational.
    We work with a number of national labs to understand how to 
integrate the new technologies that are coming to us. So it's 
not necessarily fundamental sciences, but the fact of the 
matter is we can't operate on a system with technology 
solutions that doesn't have history.
    That's where the national labs have helped us, particularly 
NREL has helped us immensely. The capability NREL has within 
its campus allowed us to test different components before any 
of it went on our system--we had to operate in real time and 
our customers would be impacted.
    Most of the studies we've done with them has helped us to 
understand--when I have a large amount of solar, for example, 
on a single circuit, how do I operate it without the end 
customer being impacted because of the variability you see in 
its production?
    We've had multiple opportunities to work with NREL to 
visualize what that future looks like which, within our 
facilities, we can't. We don't have those tools. As I 
mentioned, we don't have the resources or the incentives as an 
industry to look at that.
    So our back-up position is to say, you're an unproven 
technology, I can't adopt you. In the absence of a lab, that's 
all in the absence of a lab, then public-private partnerships, 
that's really my back-up position or I have to wait until 
somebody else puts a solution on our system and hope that I 
know what I'm doing when I have to operate it. This gives us 
that, sort of, fail-proof approach process to experience things 
before they become reality on my system.
    Hopefully I'm answering your question.
    Senator Gardner. Thank you.
    Then there are some who might say that our national labs or 
the research labs in the Federal Government are infringing or 
duplicating the work that is being done by the private sector. 
But that is simply not true because of what you just answered 
and explained, that you would not be doing what you do without 
that.
    Ms. Ratnayake. Right.
    So you can think of us in, sort of, with two different 
roles. We, as the utility industry, are really the end user of 
a number of technologies that get developed by various 
entities. Some of them, I would say a very large number of the 
ultimately commercialized technology, would have started in a 
place like a national lab or in a place like an ARPA-E funded 
program. By the time it comes to us, the remaining research and 
development is all about how do I take a scientifically proven 
component and make it a part of this grid that we have to 
operate with 100 percent reliability every single day if we 
possibly can. I can't take the risk of putting that component 
without knowing how it would interact with 12 other parts.
    None of the equipment manufacturers who deliver individual 
components have that interest. That's the unique place that 
national labs help us to bridge the gap. If they did not have 
the ability, if each individual component wasn't able to go and 
become a part of these testing facilities and proving, it's 
just not going to be commercially viable.
    So anybody who says the national labs are infringing upon 
the potential of the private sector perhaps doesn't understand 
the complexity of the system we are operating.
    Senator Gardner. Thanks, Ms. Ratnayake.
    Dr. Tumas, you are off the hook for this round. I am going 
to come back to you though next time.
    We will go to Senator Heinrich.
    Senator Heinrich. Well, I want to start by thanking the 
Chair for holding today's hearing and the witnesses have 
already presented an incredibly strong case for how valuable 
the Department of Energy's 17 national laboratories are to our 
energy future and to our nation's economy.
    In New Mexico, we are proud to be home to two of DOE's 
largest national laboratories, Los Alamos and Sandia. Both labs 
play critical roles in both national security and development 
of advanced energy technologies.
    For a number of years now I have worked here in Congress 
and with our two national labs in New Mexico to improve the 
process to transfer those innovative technologies from the labs 
into the private sector. Technology transfer and partnering 
with the private sector is a critical part of a laboratory's 
mission and key to increasing the economic impact of federal 
research dollars.
    Our national labs produce a steady stream of advanced 
technologies that we have heard about a little bit today that 
can yield big dividends in commercial markets. To improve the 
rate of transition of laboratory-developed energy technologies 
into commercial development, I believe we need to strengthen 
DOE's programs to promote stronger, direct partnerships with 
that private sector.
    To do that, today I am proud to say I am introducing a bill 
with Senator Gardner, the Energy Technology Maturation Act, 
which authorizes a program at DOE to provide dedicated funding 
to help bridge the gap between lab research and development and 
a commercial product the private sector can produce and market.
    I am also pleased to say that, in addition to Senator 
Gardner and I, Senators Bennett, Durbin, Manchin and Harris are 
original co-sponsors on that bipartisan bill and we are looking 
forward to hearing from Senator Franken, why he is not on that 
list.
    [Laughter.]
    Tech transfer is a major job creation opportunity that we 
cannot afford to miss, even in Minnesota----
    Senator Gardner. He is still----
    Senator Heinrich. ----and our bill will create an 
environment that strengthens our economy while encouraging 
future innovations.
    [Laughter.]
    Senator Franken. I have never been blindsided like this.
    Senator Heinrich. So I want to thank all of you for joining 
us today, and I am going to yield for a moment because I think 
my colleague from Minnesota is a little upset with me.
    Senator Franken. I have never been blindsided like that, 
Senator, and I resent it. I am joking, I don't.
    Senator Heinrich. Okay.
    Senator Franken. It looks good. I will look at the bill. If 
you guys are doing it, it sounds good.
    Senator Heinrich. Great.
    [Laughter.]
    Back to our witnesses.
    I want to thank our lab witnesses and just ask your 
thoughts, from the perspective of the labs. What is working in 
the world of tech transfer? What are you seeing that is 
enabling that to happen more effectively? And what isn't? And 
what can we do about it?
    Do any of you want to share your thoughts on that? We will 
start with Dr. Kearns.
    Dr. Kearns. Yes, let me jump right in because this is an 
area, as I said, I'm pretty passionate about and excited to be 
able to answer the question or at least start the discussion.
    I think there are two things that I would cite as working 
well. And one is really thinking beyond the transactional 
relationships with industry to, really, more strategic 
relationships with industry.
    No offense to our panelists here, but we have recently 
struck a long-term agreement to provide science and technology 
and strategic planning support for Exelon, one of the larger 
utilities in the U.S. So we're pretty excited about that. It's 
fairly open and it's a cooperative research and development 
agreement which allows us to have a great deal of flexibility 
and really allows us to pursue many different avenues of 
potential interest that Exelon may have in thinking about their 
own research and development activities.
    As has been commented on, they've turned--utilities today 
in a regulatory, regulated environment, have great difficulty 
in conducting research and development activities. So they've 
turned to not only Argonne National Laboratory, but they've 
turned to MIT and Northwestern with similar kinds of 
arrangements, really, to pull the laboratories and those 
universities in to their thinking in terms of what the future 
might look like, how they might best position themselves for 
the future and what new technologies they should explore. So 
that's one.
    A second is a new activity at Argonne we call chain 
reaction innovations which is sponsored by the DOE's Office of 
Advanced Manufacturing. It kind of turns things around in terms 
of how we do tech transfer and that actually invites innovators 
and entrepreneurs, they turn out to be fairly young for the 
most part, to the laboratory to actually use our facilities and 
to work with our researchers, side by side.
    It's done through a competitive process and we are just 
launching the second cohort, if you will, where we can actually 
have young, fresh minds just out of college, or perhaps they've 
just finished their postdocs, really present their ideas. 
They're selected through a competitive process. As I said, we 
team them with researchers at the laboratory, as well as a 
business mentor to really help create a winning environment for 
them so they can really be successful in terms of what they do. 
And it really spans the field of interest, the ones we have, 
all the way from basic fundamental science to new ideas in 
chemistry, to all the way to looking at advances in nuclear 
energy technologies. So it's really been well received in those 
regards.
    So those are two things that I would cite as that are 
working very well.
    Senator Gardner. Since we gobbled up a little bit of your 
time, Senator Heinrich, if you would like to ask a little bit 
more, you can.
    Senator Heinrich. Actually, I would, if either of our other 
witnesses from either NREL or West Virginia want to chime in, I 
am more than----
    Dr. Tumas. Yes, thank you, Senator.
    At NREL we think we need to be as innovative in reaching 
out to partners as we are in our research. And clearly, I think 
that true partnership is important. I like to tell my 
international colleagues in some of our collaborations that 
collaboration is much like American football. It's a contact 
sport.
    And access to the labs for small companies--there are many 
innovative mechanisms that have been developed over the years 
for that.
    I joined Los Alamos about the time in 1993 that craters 
started to become very important. I spent 17 years there. One 
of our energy frontier research centers is led by Los Alamos, 
but NREL is an active participant. And you may know that some 
of the quantum dot technologies developed there are actually in 
spin-off companies in Los Alamos County today.
    Senator Heinrich. Right, absolutely.
    Dr. Tumas. It's very clear that innovative mechanisms are 
important.
    We've developed some partnerships. One is with the Wells 
Fargo Foundation where we have 20 startup companies that have 
access to national lab capabilities for testing, proof of 
concept, and de-risking. Wells Fargo has just elected, the 
foundation has just elected to go select another 30 companies 
to participate there. Very different mechanisms.
    We have energy material networks that were just set up that 
I talked about. One is DuraMAT. It focuses on materials for 
photovoltaic modules. It's led by NREL, but it has three other 
labs: Sandia, the Stanford Linear Accelerator and Lawrence 
Berkley lab. Each has a role in big data, materials 
reliability, materials modeling, but there's an industry board 
of active photovoltaic companies as well as along the supply 
chain with companies that sit on that board, help guide the 
research, but it's a mechanism to actually provide ready, as 
needed, access to laboratory capabilities. And so, they're 
there when they're needed.
    Senator Heinrich. Great.
    Senator Gardner. Thank you, Senator.
    I am grateful to be a co-sponsor of the legislation which 
links the two together, meaning the kind of value stream that 
we need when it comes to those investments, getting them 
commercialized. So I appreciate your leadership in this area, 
Senator Heinrich.
    Senator Franken.
    Senator Franken. Thank you.
    It is like football, you were saying? What were your 
degrees from what schools?
    Dr. Tumas. I had the pleasure of watching John Elway for 
three years at Stanford, Sir.
    Senator Franken. No, no, no.
    [Laughter.]
    Oh, you were at Stanford?
    Senator Gardner. Great answer, thank you.
    Senator Franken. Okay, but I thought I heard Caltech and 
MIT, whose football programs rival Yeshiva's.
    [Laughter.]
    I am concerned about the budget cuts that President Trump 
is making in research, funding for research and development 
across the government which, I think, puts at risk our 
international competitiveness and innovative edge, not to 
mention jobs, is especially pronounced at the Department of 
Energy.
    The budget slashes energy science and research programs by 
$3.1 billion, including cutting renewable energy and energy 
efficiency research by 70 percent, and it completely ends ARPA-
E.
    These cuts would have serious impacts on our national labs 
which, truly, are the envy of the world. The Administration 
justifies these cuts by expecting the private sector to pick up 
the slack, stating that the budget, ``reflects an increased 
reliance on the private sector to fund later stage research, 
development and commercialization of energy technologies.''
    It seems like the Administration is buying into, kind of, 
the Heritage Foundation fantasy that ignores the long-standing 
research model that has been so effective in the United States 
and are now subscribing to, really, a dangerous approach and, I 
think, a naive one, that innovative technologies do not need 
assistance to transition from the lab and that there is no 
federal role through public-private partnerships and other 
types of support. They are rejecting the model that played a 
critical role in the development of the internet, for just one 
example.
    Also, Mr. Tumas, you talked about getting oil and gas from 
shale, that kind of partnership.
    Ms. Ratnayake, you work in the private sector. Is Duke 
Energy planning on substantially increasing its investment in 
energy research and development in lieu of those proposed DOE 
cuts? Are any industry consortiums contemplating the next Bell 
Labs, say, for energy innovation?
    Ms. Ratnayake. We are not, Senator Franken.
    Senator Franken. And I would like to hear from the rest of 
the panel.
    If these cuts go through, how will that impact the lab's 
ability to create and retain top talent?
    Dr. Anderson. I know from a university perspective it would 
have a dramatic effect on the next generation of innovators, 
the next generation of scientists, who are funded through the 
Department of Energy programs at our universities and through 
our national laboratories.
    And while I have the mic, Senator Franken, as you alluded 
to earlier, in terms of our national competitiveness, I can 
speak frankly with our U.S./China Clean Energy Research Center 
Advanced Coal Technology Consortium, that through that 
partnership, through that bilateral partnership, we get to see 
firsthand the innovation engine that exists in China. And so, 
cuts to our scientific endeavors in the United States, both at 
the basic level as well as applied and tech transfer, there is 
a vast economy that is ready to take our place.
    Senator Franken. So if we pass the President's budget, we 
are ceding our leadership to China and to other countries, in 
your opinion?
    Dr. Anderson. It makes it very difficult for us to maintain 
our foothold, yes.
    Senator Franken. That is what I believe.
    I am going to turn to energy storage because, Ms. 
Ratnayake, you were talking about solar energy and the problem 
you have with it being intermittent and how to deal with that.
    I believe that energy storage is a key to facilitate 
widespread deployment of renewable energy. It can also be used 
to improve grid reliability and resilience or to avoid more 
expensive upgrades. Do you agree with that?
    Ms. Ratnayake. Yes, Senator Franken. Energy storage has 
multiple characteristics that could help across our entire 
value chain. And I would perhaps say all the components you 
recognize, that there are many different ways to solve them. 
Energy storage definitely has a role to play there.
    Senator Franken. Thank you.
    May I just continue on this path here?
    Mr. Kearns, can you talk about some of the recent advances 
in energy storage that are coming out of Argonne National Lab 
as part of the Joint Center for Energy Storage Research?
    Dr. Kearns. Yes.
    We have a very active program in energy storage research. 
Working with today's technology, as well as what we call beyond 
lithium ion, there's been a real significant investment by the 
Department of Energy, certainly with support of Congress, in 
the Joint Center for Energy Storage Research over the last four 
years.
    Great progress has been made in looking at transportation, 
energy storage technologies through transportation 
applications, but also grid storage applications which has been 
the focus.
    New materials, a great deal of fundamental, scientific 
research has been done as well to help us understand those 
materials and how they would perform, if you will, in terms of 
deployment at a battery cell whether it be for a vehicle or in 
the electric grid.
    So, very good news, really, lots of promising development. 
We're not done. We have work yet to do. We have some 
fundamental science questions that need to be answered before 
we can actually move to, really, deployment of those 
technologies to industry. But great, significant work has been 
accomplished.
    Senator Franken. What can this Committee do to support you 
as you develop more reliable, efficient, and cost-effective 
advanced energy storage?
    Dr. Kearns. Certainly, continued investment, continued 
funding is really essential. I think support of active 
partnerships, which we've talked about a great deal today. The 
Joint Center for Energy Storage Research includes five national 
laboratories and four prominent universities, as well as four 
industrial partners. And so, that collaboration across the full 
spectrum of interest and capabilities is really needed.
    Industry participation involvement has really helped us 
keep the eye on the target, if you will, and really understand 
some of the challenges that they foresee in terms of actually 
manufacturing materials and moving those materials into the 
marketplace. So that full spectrum of partnership support is 
really needed as well in engagement.
    Senator Franken. Yes.
    Thank you for letting me run over. Thank you to all of our 
witnesses. You are all terrific.
    I just want to emphasize that I really think that we 
disinvest in this research at our peril and that the 
Administration has budgeted Draconian cuts, as far as I am 
concerned, to our labs and to the advanced research that we do 
there and that we would be ceding leadership to China and 
probably other countries as well, that if anything, at this 
time when we know that we are in a period of, we are seeing the 
results of climate change around the world and we know that it 
is happening. And whether you believe it is manmade or not, 
which 97 percent of peer-reviewed scientists believe it is 
changing and there is something we can do about it, and just 
from the standpoint of it is cheaper to do wind.
    You know that in Colorado, my goodness.
    Senator Gardner. And in Congress.
    [Laughter.]
    Senator Franken. Yes.
    It is cheaper to do solar and--China is choking on its 
fumes, and we want the business. I want the business coming 
from New Mexico and Colorado and from Minnesota.
    If we don't invest in our labs, in our research, it is 
really so counterproductive for our country's future. I just 
cannot emphasize that enough.
    I want to thank you all, again, for your work and your 
testimony.
    Senator Gardner. Thank you, Senator Franken.
    We will go another round if you would like. Is that alright 
with you, to go a little bit more?
    Senator Heinrich. Yes. Absolutely.
    Senator Gardner. Dr. Tumas, Senator Franken mentioned 
battery storage. Did you want to talk a little bit about some 
of the storage work you are doing at NREL as well?
    Dr. Tumas. Sure. Sure, I would.
    I think there's really--Dr. Kearns did a great job and 
Argonne's been actively engaged for a long time.
    I think what we're going to see in energy storage is we're 
going to have to couple energy storage with energy generation. 
We're going to see systems integration be important.
    I like to think of our work at NREL and among the national 
labs as, kind of, systems-driven and analysis-based research. 
We both have to look at what are the fundamental limitations of 
current technologies but we have to develop the future, next 
generation concepts as well. And we know some of those limits.
    The other thing that I think is really important is, as a 
chemist I'm fascinated by, not only what we can do by putting 
electrons into electrodes, but what can we do by putting 
electrons into chemical bonds?
    And so, we know how to electrolyze water to make hydrogen 
and oxygen and we know how to take hydrogen and oxygen back to 
electricity. We know some of the limits of those, but we know 
that those can help very much with grid integration at large 
scale.
    As we think about energy on very different--what we do for 
the car might be very different than what we do for the grid, 
long-term. So thinking about how to interconvert electrical and 
chemical energy is a grand challenge that all the labs and a 
number of universities need to address, how to make those 
efficient.
    The other one--it's really important and we've done this in 
solar for a long time and now, I think, we're going to have to 
do it in PV battery systems. And that's the, not just 
understanding, but actually predicting lifetimes, predicting 
reliability, predicting durability. All the kind of de-risking 
that our colleague from Duke Energy talked about to really make 
technologies viable.
    And we can't just try to predict 30 years by studying 
something, testing it for 30 years and then moving forward. We 
have to understand degradation mechanisms. There's fundamental 
science there, but there's plenty of applied science as well.
    Senator Gardner. Yes, thank you.
    I am sorry, go ahead. I didn't mean to interrupt, I am 
sorry, did I interrupt you?
    Dr. Tumas. No, that's fine, sir.
    Senator Gardner. Thank you.
    Dr. Tumas, just looking at your background, you went 
through industry, research and development. You went through 
two national laboratories and we have talked about other 
nations that are copying the successes that we have had in our 
national laboratory system, other nations that are ramping up 
significantly their investments, the concern I have with the 
reduced funding for our national lab system.
    But I also worry about the fact that, you know, if there is 
this uncertainty in our national lab system, does it continue 
to draw the brightest minds? Does it continue to be the magnet 
for the best and the brightest in innovation and research and 
science?
    So tell me a little bit about mission-driven science, the 
system of engineering that DOE has that brought you and kept 
you in the national lab system and what it is about that system 
that draws people from within the 50 states, but also from 
around the world to these magnets of innovation?
    Dr. Tumas. So I think it's a couple of things. As I talked 
a little bit in my testimony, big challenges that require big 
solutions.
    I think that one of the cultures you see at national 
laboratories, and you see it much more so even at some of the 
research institutions across the world, is the idea of teaming. 
I love storming, informing new teams to go after new 
challenges. It's really exciting to get a set of awesome 
scientists who have never worked together, working together 
from different disciplines on a very complicated problem.
    We have a lot of postdocs and graduate students in my 
Energy Frontier Research Center. Almost all of them have spent 
some time at the Stanford Linear Accelerator where we can 
actually look at the synthesis of molecules in real time. And 
so, there's the kind of training and access to these 
facilities.
    We now live in a world--I grew up in a world that was very 
discipline-focused. We now live in a world where graduate 
students and postdocs work very multidisciplinary. They spend 
time talking with theorists. They spend time doing advanced 
experimental work. We have many students and postdocs who are 
interested in policy and some of the analytical ramifications 
and scenarios of their research. So I think this ability for 
the lab system to really bring this multidimensional, 
multidisciplinary approach, in addition to specialized tools 
that can't be found anywhere else in the world, is really a 
critical magnet.
    Senator Gardner. Thank you.
    Senator Heinrich.
    Senator Heinrich. Storage has been touched on quite a few 
times, and I think I might want to return to that a little bit 
with Dr. Kearns and Dr. Tumas.
    But I wanted to mention, it is worth noting today that the 
DOE--and some of us following open source data have suspected 
this for a number of months--but the DOE has now said that we 
have officially hit our SunShot goals of $1.00 per watt. And we 
not only hit that goal, but we hit it three years early, Dr. 
Tumas. And back in 2011 when that was set, I think the 
equivalent is about $.06 unsubsidized per kilowatt-hour. Is 
that right, more or less? I think we were at $.27 per kilowatt-
hour in 2011 for solar, to give you a sense of how steeply we 
are coming down that curve.
    If you were to look out a few years, what in photovoltaics, 
in terms of new designs or new panel technologies, do you see 
that gets you excited, whether it is from the perspective of 
declining costs or increases in efficiency or even just 
integrated systems? What are you excited about that you see out 
there in the future that has not made it into the news just 
yet?
    Dr. Tumas. Great. Most of it is probably in the news 
somewhere but maybe it's not well-known, but I'd be glad to 
address that. Thank you for the question.
    First of all, we, if you look at--so we're all delighted 
that the SunShot goal has been met and it's always great to 
meet your goals ahead of time. What's interesting is we're 
meeting it at a time where that slope of cost reduction is not 
yet flattening out. It's very clear, and there are road maps in 
EERE--the people that run the SunShot program have a road map 
for how to get to $.03 a kilowatt-hour. They suggest by 2030. I 
would suggest that that could be accelerated, potentially.
    There also are major issues, as we talked about, with 
storage and intermittency on how to deal with a more reliable 
grid, how a two-way grid allows us to get even more solar onto 
the grid and wind and other things.
    But from a material scientist standpoint, from a 
fundamental research, I think we're not done yet either. The 
four absorbers that are in commercial PV systems were actually 
known when I was in graduate school watching John Elway play 
football. And it turns out that only recently, there was a 
material 15 years ago that was worked on at IBM, and only about 
four or five years ago people in England and people in 
Switzerland took these materials, perovskites, and showed they 
could actually be a new solar material. In fact, NREL has an 
efficiency curve that plots the efficiency over time, and this 
has a slope that's been unprecedented.
    And so, all of a sudden there's a whole set of new 
materials. At our own Energy Frontier Research Center we're 
trying to understand, as well as others, what is it about these 
materials that make them special? And while we're doing that 
we're also understanding that you can actually solution process 
these. We, and others, can actually do roll-to-roll printing of 
these materials and make 19 percent solar cells that could be 
printed like newspaper. And so, we start to see new form 
factors.
    What's interesting about solar panels despite all the cost 
reduction and all the efficiency increases is they, kind of, 
still look like they did 35 years ago.
    Senator Heinrich. Very much.
    Dr. Tumas. And you can imagine building integrated 
photovoltaics, photovoltaics everywhere else, that might bring 
you power for different applications.
    Clearly we, and a number of others, are working with the 
Department of Defense on how to take very high-efficiency 
solar, put it into flexible form factors.
    So, there's many--much we can do, not just on materials 
discovery, but it turns out for solar cells, it's not just the 
material that matters, but it's how the materials interact. 
There's several layers in a solar cell. It's how those 
materials interact over time. It's how those materials are 
manufactured at a large scale and what that position looks like 
held up to a small scale. It really covers this whole spectrum 
from discovery, but then really marching it all the way through 
to a reliable, predictable, potentially new product.
    Senator Heinrich. Dr. Kearns, same question, but storage in 
terms of either additional chemistries----
    Dr. Kearns. Sure.
    Senator Heinrich. ----about thermal storage which we have 
not touched on, non-lithium ion applications, flow batteries, 
et cetera. What has you excited about the future?
    Dr. Kearns. Oh, a number of things, really, have us excited 
about the future of energy storage and thinking beyond lithium 
ion. There's a great deal of interest in multivalent batteries 
which is, you know, part of the challenge associated with any 
battery is its capacity to store energy. By going from lithium 
ion to multivalent ion of some sort, you really increase the 
ability to store a great deal more energy. And so, we're very 
excited about that potential.
    It's a great deal of literature that's been really created, 
scientific literature, to really, kind of, validate the thought 
and the idea and really begin to move toward some applications 
in that space.
    I think also, certainly, new materials. If we look at 
electrolytes and cathodes and certainly a high interest in all 
kinds of different materials and new applications. Thoughts 
about membranes as well in this space that could really drive, 
if you will, greater efficiencies.
    Big challenge, really, for energy storage, not only in 
terms of storage capacity, but also reducing the cost. And you 
see that real time, if you will, in terms of today's lithium 
ion technology.
    We'd like to leapfrog, if you will, in terms of thinking 
about the next generation battery in terms of beyond lithium 
ion. There's something that is cost competitive to start in 
terms of where we're at today with lithium ion technology and 
drive it and improve it from there. So, a lot of excitement in 
terms of great promise, great potential there.
    Flow batteries, you mentioned, certainly of high interest 
in terms of grid storage.
    Senator Heinrich. Great. Thank you very much.
    Senator Gardner. Thank you.
    Well I can certainly tell from the panel the great pride 
that you approach your work with. Of course, the benefit to the 
country has been phenomenal over the past many decades, the 
work that you have all done in research innovation and 
development beginning with an idea of how we were going to win 
a war to today's ability to grow jobs, economy and remain the 
world's superpower of innovation.
    I want to thank you for being here today, and thank all the 
panelists for your time and testimony today.
    For the information of members, the record of this 
Committee hearing will remain open until Friday for questions 
for the record.
    This is your homework assignment. I would ask that you 
respond to those questions as quickly as possible.
    With the thanks of this Committee, the Committee is now 
adjourned.
    [Whereupon, at 4:19 p.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

             [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
             

                               [all]
</pre></body></html>
